TN
sommes (SQCKLE

Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site

No. 19-670

ARNOLD FLECK,
Petitioner,
v.
JOE WETCH, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION
FOR PETRA MANDIGO HULM in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point

for the text and 10 point for the footnotes, and this brief contains 4773 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of January, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : ‘
State of Nebraska . LE ,
My Commission Expires Nov 24, 2020 ;

 

Notary Public Affiant

Le ga 1 Briefs E-Mail Address:

contact@cocklelegalbriefs.com

www.cocklelegalbriefs.com

39378
